SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                                   FEDERAL COMMUNICATIONS
COMMISSION




TABLE OF CONTENTS


I.            INTRODUCTION....................................................................................... 2

II.           AUDITS ...................................................................................................... 5

III.          INVESTIGATIONS................................................................................... 10

V.            LEGISLATION.......................................................................................... 12

IV.           MANAGEMENT AND ADMINISTRATION ......................................... 14


VI.           SPECIFIC REPORTING REQUIREMENTS OF SECTION 5(a)                              .......
              OF THE INSPECTOR GENERAL ACT ................................................... 16


ATTACHMENTS

A.            TABLE I: OIG AUDIT REPORTS WITH QUESTIONED COSTS....... 18

B.            TABLE II: OIG AUDIT REPORTS WITH RECOMMENDATIONS
              THAT FUNDS BE PUT TO BETTER USE ............................................. 19




_________________________________________________________________
April 1, 1997 - September 30, 1997                                                                                 PAGE 1
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                    FEDERAL COMMUNICATIONS
COMMISSION




INTRODUCTION
The Federal Communications Commission (FCC) is an independent regulatory agency
exercising authority delegated to it by Congress under the Communications Act of 1934 as
amended by the Telecommunications Act of 1996. The FCC is charged with regulating
interstate and international communications by radio, television, wire, satellite and cable. The
FCC's jurisdiction covers the fifty states, the District of Columbia, and U.S. possessions. The
mandate of the FCC under the Communications Act is to make available to all people of the
United States a rapid, efficient, nationwide, and worldwide wire and radio communication
service. The FCC performs four major functions to fulfill this charge:

        spectrum allocation;
        creating rules to promote fair competition and protect consumers where
        required by market conditions;
        authorization of service; and
        enforcement.

The Chairman and four Commissioners are appointed by the President and confirmed by the
Senate. Reed E. Hundt has been the Chairman of the FCC since November 1993. As of the time
of this report, the FCC has three sitting Commissioners; James H. Quello, Rachelle B. Chong,
and Susan P. Ness. The President has nominated William E. Kennard, who has served as
General Counsel since December 8, 1993, to succeed Chairman Hundt. Harold W. Fuchtgott-
Roth, Michael Powell, and Gloria Tristani have been nominated to join Susan P. Ness as
Commissioners. The majority of FCC employees are located in Washington, DC. FCC field
offices and resident agents are located throughout the United States.

The FCC is actively involved in planning for the consolidation of the Commission into the
Portals located at 1250 Maryland Avenue, S.W., Washington D.C. Phase 1 of the move is
scheduled for March, 1998. The Office of Inspector General (OIG) is tentatively scheduled to
occupy space in the Portals in May, 1998. OIG personnel have worked with responsible officials
to ensure that the unique requirements for security and confidentiality of persons wishing to visit
the office are fully addressed.

The Commission continues to auction spectrum as authorized by the U.S. Congress in the
Omnibus Budget Reconciliation Act of 1993. As more fully detailed in recently issued "FCC
Report to Congress on Spectrum Auctions," the FCC has awarded more than 4,300 licenses to
auction winners netting bids of $23 billion with about $12 billion of this amount collected for the
U.S. Treasury to date. Congress has extended the Commission's auction authority to the year

_________________________________________________________________
April 1, 1997 - September 30, 1997                                                          PAGE 2
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                    FEDERAL COMMUNICATIONS
COMMISSION


2007, and has expanded the FCC auctions program to encompass more radio spectrum. The
OIG continues to place significant emphasis on evaluating and testing the security and reliability
of automated systems dedicated to the successful conduct of all phases of the spectrum auctions.
 In this reporting period, specific emphasis was placed upon evaluating the existing Collection
System. OIG auditors established and chaired a steering committee charged with assessing the
current status, and projected capabilities of the existing Collection System vice other systems
available both commercially off-the-shelf COTS and within the Federal government. This work
will continue into the next reporting period and will further encompass audit work in the area of
assessing the Commission's system development life cycle methodology.

In the current reporting period, OIG staff reinstituted the Field Inspection Program (FIP). The
FIP encompasses a traditional inspection methodology which includes: the verification of
records (e.g., time and attendance, seized property, and equipment); motor vehicle maintenance;
internal control over imprest funds and credit card expenditures; and, employee morale. In
addition, in this reporting period, the FIP was geared towards assessing the impact of the FY
1996 reorganization on Commission operations; employees; and, upon local, State and Federal
customers. The reorganization entailed the closure of nine attended frequency monitoring
stations and three additional monitoring sites located at FCC field offices. In place of these
previously manned stations, a national automated monitoring network is now controlled from an
existing facility in Columbia, Maryland. Nine of the 25 existing field offices as well as three of
the six regional offices were closed. Two technical staff members continue to be assigned as
Resident Agents in the nine locations in which field offices were closed.

In conjunction with the aforementioned reorganization, the National Call Center (NCC) was
established. The NCC is a clearinghouse for the thousands of inquiries made to the Commission
by the public on a monthly basis. Housed in the existing FCC facility located in Gettysburg,
Pennsylvania, the NCC uses the latest technology available to respond to queries in a timely
manner. In June, 1997, the NCC expanded operations to encompass 35 states. Normal hours of
NCC operation are Monday through Friday 8:00 am to 4:30 pm EST. The NCC can be reached
toll free by calling 1-888-CALL FCC (1-888-225-5322). Initial feedback regarding the
operations of the NCC have been extremely positive. OIG auditors will perform an independent
assessment of the NCC in the next reporting period.

The Office of Inspector General has dedicated itself to assisting the Commission as it continues
to improve its efficiency and effectiveness. The Inspector General reports directly to the
Chairman. The OIG is located in Room 752 in the FCC headquarters building at 1919 M Street,
N.W., Washington, D.C. 20554. The office is staffed by the Inspector General,
H. Walker Feaster III and seven staff members. Paul Brachfeld serves as the Assistant Inspector
General for Audits. Edward W. Hosken Jr. who had served as the Assistant Inspector General
for Investigations (AIGI) left to assume the position of Chief Deputy Clerk for Administration,

_________________________________________________________________
April 1, 1997 - September 30, 1997                                                          PAGE 3
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                 FEDERAL COMMUNICATIONS
COMMISSION


U.S. Court of Appeals for the Federal Circuit. Robert G. Andary who had formerly served as
AIGI, returned to the FCC OIG on July 20, 1997, from his position as the Inspector General at
the Federal Labor Relations Authority.

This report includes the major accomplishments and general activities of the OIG during the
period April 1, 1997, through September 30, 1997, in accordance with Section 5 of the Inspector
General Act of 1978, as amended 5 U.S.C. App. 3, § 5.




_________________________________________________________________
April 1, 1997 - September 30, 1997                                                       PAGE 4
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                   FEDERAL COMMUNICATIONS
COMMISSION




AUDITS

OVERVIEW
During the reporting period, the Office of Inspector General (OIG) issued four audit reports, one
memorandum report and eight draft reports reflecting the results of our Field Inspection
Program. OIG auditors also formed and chaired a committee composed of senior FCC
management officials dedicated to supporting the Commission's efforts to acquire and implement
a financial computer system to track collections information.

The OIG was the recipient of a favorable Peer Review Report dated May 22, 1997.
In accordance with bylaws for peer review evaluations adopted by the Executive Council on
Integrity and Efficiency (ECIE), each of the 34 Inspectors' General who compose the ECIE, are
subject to a rigorous peer review every three years. The peer review process was instituted as a
mechanism by which Inspectors General could be evaluated by independent external parties.
Results of the peer review reflect that the FCC OIG met all standards promulgated by the
Comptroller General of the United States General Accounting Office (GAO). The audit staff
was found to be qualified and independent to conduct audits, which were performed with due
professional care, and with the required level of quality control. Audits were adequately planned
and conducted by properly supervised auditors who compiled sound evidence and working
papers. Internal controls and legal and regulatory requirements were identified and evaluated
and tested as required by GAO. Finally, all audit reports were issued to appropriate parties in a
timely manner and were complete, accurate, objective, clear and concise.

As the Commission focuses on maximizing the efficient use of the public information highway,
the OIG continues to work towards ensuring the integrity and data reliability of our own internal
 network. During this reporting period, we reviewed the security over remote dial-in access to
the FCC network. This review was done in conjunction with personnel from the Information
Technology Center (ITC) of the FCC. Through this collegial effort, issues identified could be
addressed expeditiously so as to mitigate the potential of unauthorized access to sensitive
information, loss of data, and interruption in network service. The OIG has established the need
for ongoing audit presence in this area as a core component of our mission. The nature of the
work performed at the FCC, and the customers that we serve, make the security and integrity of
our information systems a paramount consideration.




_________________________________________________________________
April 1, 1997 - September 30, 1997                                                         PAGE 5
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                   FEDERAL COMMUNICATIONS
COMMISSION


The OIG continues to dedicate resources towards providing the Commission with contract audit
support services. In a climate of maximizing service and deliverables to our users while
downsizing the size of the Federal government work force, increasingly, functions are being
contracted out to the private sector. Furthermore, the Commission is actively involved in
upgrading our automated databases. Related systems development and implementation activity
requires a skill set which often can only be attained through program services contracts with the
private sector. While the OIG within the FCC is staffed with only eight full time equivalent
positions (FTEs), the staff has significant collective experience in performing contract audits.
Utilizing the existing skill set, the OIG represents the Commission and the Federal government
in ensuring that required deliverables are produced in a timely and efficient manner and at a
reasonable and supportable cost. In this reporting period, the OIG identified questioned costs in
the amount of $265,180 and identified unpaid remittances due the government by a contractor of
approximately $20,000, of which full remittance was received.

During this reporting period the U.S. Attorney's Office for the District of Columbia obtained a
two count felony conviction against a former sub-contractor to the FCC. The conviction was
obtained through the time consuming and dedicated efforts of the U.S. Attorney, agents from the
Federal Bureau of Investigations and FCC OIG auditors. For their efforts, three members of the
OIG staff received letters of commendation from the Department of Justice. Further details
related to this case are encapsulated in the Investigations section of this semiannual report.

In addition to the aforementioned closed case, OIG auditors continued to provide significant
input towards the successful discharge of investigative cases conducted by the OIG. Audit staff
is working as a part of a multi-disciplinary team with the Assistant Inspector General for
Investigations, towards addressing potential criminal and ethical violations by employees and
contractors.

Audit reports can generally be obtained via the Internet at the FCC website: www.fcc.gov.
However, special review and audit reports which contain sensitive or proprietary information
will be restricted to specific individuals and organizations with a need to know.




_________________________________________________________________
April 1, 1997 - September 30, 1997                                                        PAGE 6
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                    FEDERAL COMMUNICATIONS
COMMISSION


SIGNIFICANT AUDIT ACTIVITY


1.     FOLLOW-UP AUDIT OF COMPLIANCE WITH PROVISIONS OF THE PROMPT
       PAYMENT ACT
       (OIG 97-5)

       The report was issued June, 1997

The objective of the audit was to evaluate and assess the corrective actions which were instituted
as a result of recommendations contained in the report issued by this office in March, 1994. An
additional objective was to assess the impact of the Commission's recent conversion from the
National Finance Center (NFC) to the Federal Financial System (FFS) and to determine the
impact this conversion has had on compliance with provisions of the Act.

The auditors identified that two out of the five recommendations from the 1994 audit report have
not been implemented and that the conversion to the FFS has resulted in 25 percent of invoices
paid during FY 1996 being paid late. However, since interest penalties dropped significantly
after the first half of FY 1996 and this trend continued through the first two quarters of FY 1997,
no additional recommendations were made in the report.


2.     AUDIT OF CONTRACTING OFFICER TECHNICAL REPRESENTATIVE (COTR)
       PROGRAM (OIG 97-7)

       The report was issued July, 1997

The primary objective of this audit was to evaluate the FCC's COTR program to determine
overall compliance with existing policies and procedures and assess the integrity of related
internal controls.

Audit findings identified that the Acquisitions Branch has taken steps to upgrade the quality and
performance of FCC COTRs. A general commitment to ensure that COTRs are performing in a
professional capacity exists within the office. However, the volume of workload and limited
staffing have an adverse effect on their ability to fully address this commitment. The auditors
identified that COTRs were not consistently maintaining well documented and organized
contract files. This condition resulted in an incomplete audit trail necessary to validate that the
contractors had met contractual requirements and that related invoices were timely, accurate and
legitimate. The monitoring of COTR performance has also been inadequate to ensure that they
are performing their assigned duties.

_________________________________________________________________
April 1, 1997 - September 30, 1997                                                           PAGE 7
SEMIANNUAL REPORT    OF THE   INSPECTOR GENERAL                    FEDERAL COMMUNICATIONS
COMMISSION




The audit report contained recommendations for corrective action. Management concurred with
each of the recommendations.

3.        REPORT ON INCURRED COSTS FOR FISCAL YEARS 1995, 1996 AND SHORT
          YEAR 1997 (OIG 97-18)

          The report was issued September, 1997

OIG Audit Report 96-08 identified that a subcontractor to a prime FCC vendor exhibited labor
timekeeping internal control weaknesses on a time and material contract (T&M) to include the
failure of:

     the President of the firm to enter start and end times on his daily timesheet;
     employees to record their time on a daily basis;
     the company to maintain timesheets as controlled documents;
     the company to train employees as to proper timekeeping procedures; and,
     the subcontractor to distribute written timekeeping policies and procedures to
     employees.

These findings related to the subcontractor and potential billing irregularities resulted in
additional OIG audit and investigative activity. This incurred cost audit identified questioned
costs of $265,180. Of that amount, $235,002 resulted from the lack of adequate records to
support 2,332.3 hours billed to the FCC by the Information Systems Consultant.


4.        SPECIAL REVIEW: INTERNET PENETRATION ANALYSIS (OIG 97-2)

          The report was issued September, 1997

The objective of this special review was to evaluate the security of the Commission's
connectivity to the Internet. To accomplish this objective, the review team (which incorporated
members of the FCC Information Technology Center (ITC)) conducted systematic attacks on the
FCC computer system ranging from that of an internet user with strong technical skills to an
internal FCC user with all information about the Commission's Internet connection and internal
network.

During the review it was determined that portions of the Commission's network were vulnerable
to compromise. In the opinion of the team, had the intent of the attack been malicious, the
compromises could have resulted in the disruption of network services and the loss of data.

_________________________________________________________________
April 1, 1997 - September 30, 1997                                                          PAGE 8
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                    FEDERAL COMMUNICATIONS
COMMISSION




A detailed report outlining the specific nature of the attacks and how the OIG was able to exploit
vulnerabilities within the Commission network infrastructure was provided on a "need-to-know"
basis to a limited number of personnel within the ITC. Following each phase of the review,
members of the review team met with system administration personnel to discuss specific
conditions identified during testing. Although the OIG did not verify within the scope of this
review that each vulnerability was corrected, the auditors were informed by ITC officials that
this had been accomplished.

This report will not be made available to the public or placed on the FCC website due to the
sensitive material contained within.

5.     MEMORANDUM REPORT: ITS INCORPORATED

       The report was issued July, 1997

On July 26, 1996, the FCC entered into a contract with ITS Incorporated (FCC 96-11) to provide
the public with copies of licenses, lists of licenses and all manner of other FCC documents which
are not restricted from public access. In response to allegations of contractual violations of terms
related to ITS billing of FCC customers, the OIG performed an analysis of the contract and
related deliverables to the public. While the allegations of contractual service violations were
not fully supported, it was identified during the performance of the work that, under contractual
provisions, the contractor was to remit to the Government approximately $21,000 for
consolidated lease space at FCC facilities per annum. No record of payments had been identified
nor had a mechanism been established to facilitate the payment which would be directed to the
General Services Administration (GSA).

On October 7, 1997, the OIG was notified by the Chief, Acquisitions Branch, that rental payment
from ITS Incorporated for approximately $20,000 had been received. The OIG is continuing to
monitor the performance of ITS.




_________________________________________________________________
April 1, 1997 - September 30, 1997                                                           PAGE 9
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                    FEDERAL COMMUNICATIONS
COMMISSION




INVESTIGATIONS

OVERVIEW
Investigative matters pursued by this office are generally initiated as a result of allegations
received through the OIG hotline or from FCC managers and employees who contact the OIG
directly. Investigations may also be predicated upon audit or inspection findings of fraud, waste,
abuse, corruption, or mismanagement by FCC employees, contractors, and/or subcontractors.
Upon receipt of an allegation of an administrative or criminal violation, the OIG usually
conducts a preliminary inquiry to determine if an investigation is warranted. Investigations
may involve possible violations of regulations regarding employee responsibilities and conduct,
Federal criminal law, and other regulations and statutes pertaining to the activities of the
Commission. Investigative findings may lead to criminal or civil prosecution, or administrative
action.

The OIG also receives complaints from the general public, both private citizens and commercial
enterprises, about the manner in which the FCC executes its program and oversight
responsibilities. All such complaints are examined to determine whether there is any basis for
OIG audit or investigative action. If nothing within the jurisdiction of the OIG is alleged, the
complaint is usually referred to the appropriate FCC bureau or office for response directly to the
complainant. A copy of the response is also provided to the OIG.

ACTIVITY DURING THIS PERIOD

During this reporting period, fifteen complaints were received in the OIG. Two of the
complaints have resulted in the initiation of investigations, both of which are still pending.
Seven of the complaints were closed because the allegations were found to be without merit, and
one of the complaints was referred to an FCC Bureau for appropriate action.

Two investigations pending at the beginning of the reporting period were closed. One closure
resulted from a determination that the available evidence did not support the alleged violation.
The second closure resulted in a referral to FCC management for administrative action against a
number of FCC employees. Administrative action is pending against the employees.

During this reporting period, the OIG continued to conduct investigations utilizing a multi-
disciplinary approach using the forensic and computer expertise of OIG auditors. One OIG
auditor provided support for the prosecution of two FCC subcontractors by analyzing complex

_________________________________________________________________
April 1, 1997 - September 30, 1997                                                         PAGE 10
SEMIANNUAL REPORT           OF THE    INSPECTOR GENERAL                                          FEDERAL COMMUNICATIONS
COMMISSION


financial records and tracing fraudulent financial transactions. Another OIG auditor trained in
detecting and investigating computer crime has supported an ongoing prosecution of an FCC
employee involving the use of an FCC computer, and has supported another OIG investigation.


STATISTICS

Cases pending as of March 31,1997................................................................                    10

New cases.........................................................................................................   15

Cases closed......................................................................................................   10

Cases pending as of September 30, 1997..........................................................                     15


SIGNIFICANT INVESTIGATIVE CASE SUMMARIES

•In a matter referred to the U.S. Attorney for the District of Columbia and jointly investigated by
the OIG and the FBI, two former FCC subcontractors pled guilty to Federal offenses. The guilty
pleas were entered in U.S. District Court in Washington D.C. on August 25, 1997. Leon
Clements pled guilty to Mail Fraud and subscribing to a false tax return. Virginia Stephens pled
guilty to aiding and assisting the subscribing to a false tax return. Restitution to the FCC was
part of the plea agreements. Sentencing is scheduled for November 21, 1997. The OIG
continues to pursue administrative issues arising out of this investigation.

•An investigation referred to the Public Integrity Section of the Department of Justice Criminal
Division in December 1994 remains open pending final action by prosecutors. The matter
involves a potential post-employment conflict of interest violation by a former FCC official.

•A case involving an employee's use of an FCC computer to download possible child
pornography remains open pending prosecutive action in Howard and Baltimore Counties in
Maryland. The OIG continues to assist both jurisdictions in resolving this matter. The OIG is
attempting to address issues regarding internet access by FCC employees, and is coordinating
efforts with the FCC Computer Security Officer.


•An investigation into allegations that employees within an FCC Bureau were operating
gambling pools using official time and resources was closed. The investigation corroborated the
allegations and the matter has been referred to management for administrative action against the

_________________________________________________________________
April 1, 1997 - September 30, 1997                                                                                        PAGE 11
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                   FEDERAL COMMUNICATIONS
COMMISSION


operators of the pools as well as against supervisors who indirectly condoned the activity by
participating in the pools. This office continues to provide support to management in pursuing
appropriate administrative action. Investigative recommendations were made to FCC ethics
officials to educate employees about laws and regulations prohibiting such gambling.

•An investigation into possible violations of the Privacy Act through a disclosure on the FCC e-
mail system was closed when it could not be established that the information disclosed came
from records protected by the Privacy Act.

HOTLINE CALLS

During this reporting period, the OIG Hotline Technician instituted a recorded message to greet
callers to the OIG Hotline. Previously, callers to the Hotline complained about a variety of
communications-related issues having nothing to do with any matters within the jurisdiction of
the OIG. For example, in the last reporting period there were 125 calls to the published hotline
numbers, (202) 418-0473 and 1-888-863-2244 (toll free), of which less than 1% dealt with
complaints within the OIG jurisdiction. Now callers are instructed to call the FCC National Call
Center, 1-888-225-5322, if their complaint concerns phone service, local cable providers, long-
distance carrier slamming, interference, or similar complaints within the program responsibility
of other FCC bureaus and offices. As a result of the new recording, actual hotline complaints
have decreased.


LEGISLATION
______________________________________________________________________________

OVERVIEW
Pursuant to section 4(a)(2) of the Inspector General Act of 1978 (IG Act), as amended, our office
monitors and reviews existing and proposed legislative and regulatory items for their impact on
the Office of the Inspector General and the Federal Communications Commission programs and
operations. Specifically, we perform this activity to evaluate their potential for encouraging
economy and efficiency and preventing fraud, waste, and mismanagement.

ACTIVITY DURING THIS PERIOD

Counsel to the IG served on the Office of Legislative and InterGovernmental Affairs (OLIA)
Legislative Working Group for the 105th Congress. The IG counsel also monitored the
Legislative Status Report prepared by OLIA for bills possibly affecting the Commission or the
Office of the Inspector General.

_________________________________________________________________
April 1, 1997 - September 30, 1997                                                        PAGE 12
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                   FEDERAL COMMUNICATIONS
COMMISSION




MANAGEMENT AND ADMINISTRATION

During the six-month reporting period covered by this report, the FCC OIG has continued to
dedicate staff towards assisting the agency in areas in which our expertise can provide benefit.
This emphasis is perhaps best reflected in two major projects, the Field Inspection Program (FIP)
and the Collections System Steering Committee.

Field Inspection Program (FIP)

The FIP is a program by which OIG staff travel to field offices and resident agent locations to
perform comprehensive inspections. The inspection team visited the following locations:

          South Central Regional Director- Kansas City, Missouri
          Western Regional Director- San Francisco, California
          Kansas City Field Office
          Tampa Field Office
          San Francisco Field Office
          San Diego Field Office
          Miami Resident Agents
          Norfolk Resident Agents
          Houston Resident Agents

Prior to OIG traveling to the field, detailed interviews were conducted with personnel within the
Compliance and Information Bureau (CIB), to whom field personnel report. Additional
meetings were held with senior officials from most headquarters bureaus and offices. The focus
of these interviews was the identification as to the services that CIB was performing for other
bureaus and offices and the connectivity between the field and headquarters.

At each location a detailed checklist, developed to assess compliance with Federal government
and internal FCC rules and regulations, was completed. The team conducted interviews with
FCC staff and persons/organizations serviced by the field (to include Federal and State agencies
and entities and Congressman Pickett of the Second District of Virginia) to obtain feedback on
operational effectiveness and efficiency and identify impediments which may exist to the
realization of optimal performance. The FIP team also searched for best practices which may be
transportable from one field location to another. Likewise, the inspection team sought to identify
impediments to effective and efficient operations of field personnel..



_________________________________________________________________
April 1, 1997 - September 30, 1997                                                        PAGE 13
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                   FEDERAL COMMUNICATIONS
COMMISSION


In September, 1997, individual draft reports for each office inspected as well as a summary
report were provided to the Chief, CIB for comment. The final reports will be issued in the next
reporting period.

Collection Systems Steering Committee

In May, 1997, the OIG initiated a special review of the FCC Collection System. The auditors
identified that the existing collection system was not meeting Commission tracking or reporting
requirements.

The Collection System had originally been developed to meet requirements related to fee
collections. With the passage of the Omnibus Budget Reconciliation Act of 1993, the FCC
collection requirements changed as the activity towards auctioning off spectrum was initiated.
To date the FCC has awarded more than 4,300 licenses to auction winners netting bids of $23
billion with about $12 billion of this amount collected for the U.S. Treasury. This program will
continue in light of the extension of the Commission's auction authority by Congress, to the year
2007, and expansion of the FCC auctions program to encompass more radio spectrum.

The OIG briefed senior officials within the Office of the Managing Director and Wireless
Telecommunications Bureau as to the results of the Special Review. Recognizing the
capabilities of the OIG, a determination was made by management to establish a high level
steering committee, facilitated by a member of the OIG. The mission of the Collection System
Steering Committee is to:

        Conduct an objective assessment of the Commission's collection system.

        Advise management in a single voice on alternative courses of corrective
        action.

The Collection System Steering Committee has identified that the current collection system does
not meet Commission requirements and that the system cannot be upgraded to meet current and
projected requirements. The Committee is currently examining alternatives and will be making a
formal recommendation to management in November, 1997.




_________________________________________________________________
April 1, 1997 - September 30, 1997                                                        PAGE 14
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                   FEDERAL COMMUNICATIONS
COMMISSION




SPECIFIC REPORTING REQUIREMENTS OF SECTION
5(a) OF THE INSPECTOR GENERAL ACT

The following summarizes the Office of Inspector General response to the twelve specific
reporting requirements set forth in Section 5(a) of the Inspector General Act of 1978, as
amended.

1. A description of significant problems, abuses, and deficiencies relating to the administration
of programs and operations of such establishment disclosed by such activities during the
reporting period.

       No such problems, abuses, or deficiencies were disclosed during the reporting period.

2. A description of the recommendations for corrective action made by the Office during the
reporting period with respect to significant problems, abuses, or deficiencies identified pursuant
to paragraph (1).

       No recommendations were made. See the response to paragraph (1).

3. An identification of each significant recommendation described in previous semiannual
reports on which corrective action has not been completed.

       No significant recommendations remain outstanding.

4. A summary of matters referred to prosecutive authorities and the prosecutions and
convictions which have resulted.

       The potential violation of post-employment restrictions referred to the Public Integrity
Section, Department of Justice, on December 5, 1994, is still pending a prosecutive decision by
the Department.

        In a matter referred to the U.S. Attorney for the District of Columbia and jointly
investigated by the OIG and the FBI, two former FCC subcontractors pled guilty to Federal
offenses. The guilty pleas were entered in U.S. District Court in Washington D.C. on August 25,
1997. Leon Clements pled guilty to Mail Fraud and subscribing to a false tax return. Virginia
Stephens pled guilty to aiding and assisting the subscribing to a false tax return. Restitution to
the FCC was part of the plea agreements. Sentencing is scheduled for November 21, 1997.

_________________________________________________________________
April 1, 1997 - September 30, 1997                                                        PAGE 15
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                    FEDERAL COMMUNICATIONS
COMMISSION




      A case involving an employee's use of an FCC computer to download possible child
pornography remains open pending prosecutive action in Howard and Baltimore Counties in
Maryland.

        A case referred to the FBI Baltimore, Maryland, office involving a possible obstruction
of FCC proceedings is pending a prosecutive opinion by the Office of the U.S. Attorney for the
District of Maryland.

5.     A summary of each report made to the head of the establishment under section (6)(b)(2)
during the reporting period.

        No report was made to the Chairman of the FCC under section (6)(b)(2) during the
reporting period.

6. A listing, subdivided according to subject matter, of each audit report issued by the Office
during the reporting period, and for each audit report, where applicable, the total dollar value
of questioned costs (including a separate category for the dollar value of unsupported costs) and
the dollar value of recommendations that funds be put to better use.

       Each audit report issued during the reporting period is listed according to subject matter
and described in part II, above.

7. A summary of each particularly significant report.

       Each audit report issued during the reporting period is summarized in part II, above.

8. Statistical tables showing the total number of audit reports with questioned costs and the total
dollar value of questioned costs.

       The required statistical table can be found at Attachment A to this report.

9. Statistical tables showing the total number of audit reports with recommendations that funds
be put to better use and the dollar value of such recommendations.

       The required statistical table can be found at Attachment B to this report.

10. A summary of each audit report issued before the commencement of the reporting period for
which no management decision has been made by the end of the reporting period (including the
date and title of each such report), an explanation of the reasons such management decision has

_________________________________________________________________
April 1, 1997 - September 30, 1997                                                         PAGE 16
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                 FEDERAL COMMUNICATIONS
COMMISSION


not been made, and a statement concerning the desired timetable for achieving a management
decision on each such report.

       No management decisions fall within this category.

11. A description and explanation of the reasons for any significant revised management
decision made during the reporting period.

       No management decisions fall within this category.

12. Information concerning any significant management decision with which the Inspector
General is in disagreement.

       No management decisions fall within this category.




_________________________________________________________________
April 1, 1997 - September 30, 1997                                                      PAGE 17
